AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

   SOUTHWEST BORDER PROSECUTION

    INITIATIVE FUNDING RECEIVED BY

          HARRIS COUNTY, TEXAS




        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-12-013

               June 2012

               AUDIT OF OFFICE OF JUSTICE PROGRAMS 

                 SOUTHWEST BORDER PROSECUTION

                 INITIATIVE FUNDING RECEIVED BY

                      HARRIS COUNTY, TEXAS


                          EXECUTIVE SUMMARY



       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Harris County, Texas. From fiscal years (FYs) 2007 through 2011, Harris
County received SWBPI funding totaling $3,035,077 on a pro-rata basis.

      Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
(HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF).
Many U.S. Attorneys have developed prosecution guidelines that govern the
most common violations of federal law. These prosecution guidelines are
used by law enforcement agencies to determine whether to file a case in
federal, state, or county court. As a result, many federally initiated cases
occurring near the southwest border are referred to the state or county for
prosecution.

       The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. The SWBPI reimburses the eligible
applicants for costs incurred during prosecution for three major categories
based on the types of services provided: (1) prosecution only, (2) pre-trial
detention only, and (3) both prosecution and pre-trial detention.
Reimbursements received from SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law. For
FY 2012, Congress appropriated $10 million for Border Prosecution Initiatives
to reimburse state, county, parish, tribal, or municipal governments for costs
associated with the prosecution of criminal cases declined by local U.S.
Attorneys’ offices.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Harris County were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI.
       We found that Harris County claimed and was reimbursed for cases
that were ineligible under the SWBPI guidelines. Based on the deficiencies
listed below, we identified questioned costs totaling $548,811. 1 Specifically,
we found that Harris County:

   •	 Received unallowable reimbursements totaling $186,933 for 96 cases
      that were submitted in the wrong period.

   •	 Received excess pre-trial detention reimbursements totaling $191,135
      for 308 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days. This included claims for
      pre-trial detention costs after the cases were disposed.

   •	 Received unallowable reimbursements totaling $74,665 for 32 cases
      that were not federally initiated.

   •	 Received excess reimbursements totaling $60,071 for 120 cases that
      were submitted under both the prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial detention.

   •	 Received excess reimbursements totaling $31,364 for 14 cases that
      were that were submitted under the wrong disposition category, based
      on numbers of days from arrest to disposition.

   •	 Received unallowable reimbursements totaling $4,644 for four cases
      that were investigated or prosecuted during concurrent periods of time
      with cases involving the same defendant that were also submitted for
      reimbursement.

      Additionally, we determined that OJP performed a retroactive review of
the pre-trial detention reimbursements received by Harris County for cases
submitted in FY 2010. Harris County originally claimed pre-trial detention
reimbursement for 9,577 detention days for an award totaling $708,698.
The OJP review disallowed a portion of Harris County’s pre-trial detention
award for FY 2010. After the retroactive review, OJP determined that only
5,951 of the detention days claimed by Harris County were allowable. This
lowered the allowable detention award to $440,374. Although Harris County
already received the originally claimed detention reimbursement in the
amount of $706,698, OJP officials expressed intentions to remove the
unallowable portion of detention costs from the following reimbursement

       1
         We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs that were questioned based on other SWBPI criteria. As a result, the total
questioned costs figure excludes duplicate questioned costs that were questioned based on
other SWBPI criteria.


                                               ii
award to Harris County. As a result, OJP intends to remove unallowable
detention costs totaling $268,324 for 3,626 days of excess detention
reimbursements.

      As a result of the OJP review, we focused our review of pre-trial
detention costs for FY 2010 on the remaining detention days reimbursed to
Harris County to avoid questioning the same reimbursements disallowed by
OJP.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




                                    iii
                                        TABLE OF CONTENTS


INTRODUCTION ................................................................................. 1


      Background .......................................................................... 1

FINDINGS AND RECOMMENDATIONS ................................................. 5


      Case Eligibility ...................................................................... 5

      Accuracy of Reimbursements.................................................. 7

Recommendations.............................................................................. 8


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY .................... 9


APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS .............. 10


APPENDIX III: DETAILS OF QUESTIONED COSTS ............................. 11


APPENDIX IV: HARRIS COUNTY RESPONSE TO THE DRAFT 

    REPORT ................................................................................... 29


APPENDIX V: OIG COMMENTS ON HARRIS COUNTY’S RESPONSE

    TO THE DRAFT ......................................................................... 34


APPENDIX VI: OJP RESPONSE TO THE DRAFT REPORT ..................... 42


APPENDIX VII: OIG ANALYSIS AND SUMMARY OF ACTIONS

    NECESSARY TO CLOSE REPORT ............................................... 46

               AUDIT OF OFFICE OF JUSTICE PROGRAMS 

                 SOUTHWEST BORDER PROSECUTION

                 INITIATIVE FUNDING RECEIVED BY

                      HARRIS COUNTY, TEXAS


                            INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to Harris County, Texas. The objective of the audit
was to determine whether the SWBPI reimbursements received by Harris
County were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

      For FY 2012, Congress appropriated $10 million in funding for the
border prosecutor initiative to reimburse state, county, parish, tribal, or
municipal governments for costs associated with the prosecution of criminal
cases declined by local U.S. Attorneys’ offices. Reimbursements received
from the SWBPI funding may be used by applicant jurisdictions for any
purpose not otherwise prohibited by federal law; however, the direct support
and enhancement of jurisdictions’ prosecutorial and detention services are
encouraged.




                                      1

      The SWBPI reimburses the eligible applicants for costs incurred during
prosecution for three major categories based on the types of services
provided: (1) prosecution only, (2) pre-trial detention only, and (3) both
prosecution and pre-trial detention. For cases disposed of between FY 2002
and the second quarter of FY 2008, each eligible case submitted for
prosecution or pre-trial detention services only received the following
maximum reimbursement, based upon the length of disposition and the
availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.


      For cases disposed of between FY 2002 and the second quarter of
FY 2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.


      For cases disposed between FY 2002 and the second quarter of
FY 2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant was required to be detained
overnight, i.e., from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.




                                      2

       For cases disposed between the third and fourth quarter of FY 2008,
jurisdictions may only receive reimbursements for the actual number of
prosecutor hours charged to the case and the number of days the defendant
was detained prior to the disposition of the case. Prosecutors’ salaries
charged to the case were based on the average hourly rate for the county’s
prosecutors and cannot include fringe benefits. Detention reimbursements
were based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

       For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for Harris County are shown
in Exhibit 1.




                                      3

                             EXHIBIT 1

           PRO-RATA REIMBURSEMENT BASIS TO HARRIS COUNTY


                                                                           PERCENTAGE
 REPORTING PERIOD            START DATE              END DATE
                                                                           REIMBURSED
 FY07,     1st Quarter        10/01/06               12/31/06                52.34%
 FY07,     2nd Quarter        01/01/07               03/31/07                52.45%
 FY07,     3rd Quarter        04/01/07               06/30/07                49.03%
 FY07,     4th Quarter        07/01/07               09/30/07                57.26%
 FY08,     1st Quarter        10/01/07               12/31/07                86.97%
 FY08,     2nd Quarter        01/01/08               03/31/08                71.63%
 FY08,     3rd Quarter        04/01/08               06/30/08               111.05%
 FY08,     4th Quarter        07/01/08               09/30/08               109.15%
 FY09,     All Quarters       10/01/08               09/30/09               100.00%
 FY10,     All Quarters       10/01/09               09/30/10               100.00%
Source: Office of Justice Programs



     Harris County received reimbursements from SWBPI funds totaling
$3,035,077 from FYs 2007 through 2011, as shown in Exhibit 2.


                               EXHIBIT 2
                 REIMBURSEMENTS MADE TO HARRIS COUNTY 2

    REPORTING                                             AMOUNT              AMOUNT
                          START DATE     END DATE
      PERIOD                                             REQUESTED          REIMBURSED
 FY07, 1st Quarter         10/01/06      12/31/06          152,500              $79,811
 FY07, 2nd Quarter         01/01/07      03/31/07          162,500               85,228
 FY07, 3rd Quarter         04/01/07      06/30/07          167,500               82,131
 FY07, 4th Quarter         07/01/07      09/30/07          160,000               91,623
 FY08, 1st Quarter         10/01/07      12/31/07          155,000              134,805
 FY08, 2nd Quarter         01/01/08      03/31/08          337,500              241,737
 FY08, 3rd Quarter         04/01/08      06/30/08          170,514              189,354
 FY08, 4th Quarter         07/01/08      09/30/08          250,366              273,270
 FY09, All Quarters        10/01/08      09/30/09        1,086,516            1,086,516
 FY10, All Quarters        10/01/09      09/30/10          770,602              770,602
 TOTAL                                                                      $3,035,077
Source: Office of Justice Programs




       2
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.


                                              4

                  FINDINGS AND RECOMMENDATIONS


       We found that Harris County claimed and was reimbursed for
       cases that were ineligible under the SWBPI guidelines.
       Specifically, we found cases that were: (1) submitted in the
       wrong period, (2) claimed under pre-trial detention using excess
       detention days, including jail days after disposition, (3) not
       federally initiated, (4) claimed under both prosecution and
       pre-trial detention category that did not meet the requirements
       for pre-trial detention, (5) submitted in the wrong disposition
       category, (6) investigated or prosecuted concurrently. As a
       result, we identified questioned costs totaling $548,811.3


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime
Drug Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case was
formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or local government are
ineligible for reimbursement.

       We analyzed the 1,166 cases submitted for reimbursement by Harris
County to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines. In addition, we reviewed
all cases submitted to determine if: (1) reimbursements were submitted in
the period the cases were disposed, (2) the cases met the pre-trial detention


       3
         We reduced the total dollar-related findings detailed in Appendix II by the duplicated
questioned costs that were questioned based on other SWBPI criteria. As a result, the total
questioned costs figure excludes duplicate questioned costs that were questioned based on
other SWBPI criteria.


                                              5

requirements, (3) there were duplicates or concurrently prosecuted cases,
(4) cases were submitted in the correct disposition category, (5) the
approved federal detention rate was used to calculate the detention
reimbursement claimed, (6) cases had federal law enforcement involvement,
and (7) the approved prosecution award was used to calculate the
prosecution reimbursement claimed.

      Based on our review, we found that Harris County received SWBPI
funds totaling $548,811 for 574 cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines. A detailed listing of the
cases claimed by Harris County that were not eligible for reimbursement is
provided in Appendix III. Specifically, we found that Harris County: 4

   •	 Received unallowable reimbursements totaling $186,933 for 96 cases
      that were submitted in the wrong period.

   •	 Received excess pre-trial detention reimbursements totaling $191,135
      for 308 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days. This included claims for
      pre-trial detention costs after the cases were disposed.

   •	 Received unallowable reimbursements totaling $74,665 for 32 cases
      that were not federally initiated.

   •	 Received excess reimbursements totaling $60,071 for 120 cases that
      were submitted under both the prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial detention.

   •	 Received excess reimbursements totaling $31,364 for 14 cases that
      were that were submitted under the wrong disposition category, based
      on numbers of days from arrest to disposition.

   •	 Received unallowable reimbursements totaling $4,644 for four cases
      that were investigated or prosecuted during concurrent periods of time
      with cases involving the same defendant that were also submitted for
      reimbursement.




       4
         The number of unallowable cases detailed includes cases that have duplicate
questioned costs because the cases were questioned previously, based on other SWBPI
reimbursement criteria. The total amount of duplicate questioned costs has been reduced
from the total dollar-related findings detailed in Appendix II.


                                            6

      Additionally, we determined that OJP performed a retroactive review of
the pre-trial detention reimbursements received by Harris County for cases
submitted in FY 2010. Harris County originally claimed pre-trial detention
reimbursement for 9,577 detention days for an award totaling $708,698.
The OJP review disallowed a portion of Harris County’s pre-trial detention
award for FY 2010. After the retroactive review, OJP determined that only
5,951 of the detention days claimed by Harris County were allowable. This
lowered the allowable detention award to $440,374. Although Harris County
already received the originally claimed detention reimbursement in the
amount of $706,698, OJP officials expressed intentions to remove the
unallowable portion of detention costs from the following reimbursement
award to Harris County. As a result, OJP intends to remove unallowable
detention costs totaling $268,324 for 3,626 days of excess detention
reimbursements.

       As a result of the previous OJP review, we focused our review of pre­
trial detention costs for FY 2010 on the remaining detention days reimbursed
to Harris County to avoid questioning the same reimbursements disallowed
by OJP.

Accuracy of Reimbursements

      Harris County requests reimbursements from SWBPI funds through an
on-line application available on the Bureau of Justice Assistance website.
Pursuant to the SWBPI guidelines, for FYs 2002 through 2007 eligible cases
were reimbursed using a uniform payment per case schedule based on the
length of disposition, which is calculated from the date of the suspect’s
arrest through case resolution. Resolution of the case is defined as
dismissal, conviction, or plea.

      We reviewed the reimbursement requests submitted by Harris County
for FY 2007 to determine if the number of cases claimed for each disposition
category was supported by the detailed case listings obtained during
fieldwork. 5 Based on our review, we determined that the reimbursement
requests materially reconciled with the master case listing.




       5
          We did not reconcile cases submitted to OJP after FY 2007 because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to FY 2008, SWBPI recipients
were only required to provide OJP the number of cases for which they were requesting
reimbursement for each disposition category.


                                              7

Recommendations

      We recommend that OJP:

1.	   Remedy the $186,933 in questioned costs received by Harris County
      for 96 cases that were submitted in the wrong period.

2.	   Remedy the $191,135 in questioned costs received by Harris County
      for 308 cases that were submitted for detention days in excess of the
      actual number of pre-trial detention days, including claims for pre-trial
      detention costs after the cases were disposed.

3.	   Remedy the $74,665 in questioned costs received by Harris County for
      32 cases that were not federally initiated.

4.	   Remedy the $60,071 in questioned costs received by Harris County for
      120 cases that were submitted under both the prosecution and pre­
      trial detention category that did not meet the requirements for pre­
      trial detention.

5.	   Remedy the $31,364 in questioned costs received by Harris County for
      14 cases that were that were submitted under the wrong disposition
      category, based on numbers of days from arrest to disposition.

6.	   Remedy the $4,644 in questioned costs received by Harris County for
      four cases that were investigated or prosecuted during concurrent
      periods of time with cases involving the same defendant that were also
      submitted for reimbursement.




                                       8

                                                              APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
scope of our audit included reimbursements received by Harris County for
FYs 2007 through 2011.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Harris County SWBPI activities in case eligibility and
compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for Harris County as a whole. The
Single Audit Report for Harris County was prepared under the provisions of
Office of Management and Budget Circular A-133 for the fiscal year ended
February 28, 2011. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to Harris County or federal programs. The auditor’s assessment
disclosed no material control weaknesses or significant non-compliance
issues related to the SWBPI. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.




                                     9

                                                                            APPENDIX II

              SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                               AMOUNT             PAGE

Unallowable cases that were submitted in the
                                                                $322,394              6
  wrong period.

Excess reimbursements for cases that
  claimed pre-trial detention days in excess
                                                                 192,263              6
  of actual detention days, including claims

  for pre-trial detention after the disposition

  date.


Unallowable cases that were not federally
                                                                   74,665             6
  initiated.

Excess reimbursements for cases that were
  erroneously claimed as both prosecution
                                                                   61,282             6
  and pre-trial detention that did not meet
  the pre-trial detention requirement.

Excess reimbursements for cases that were
                                                                   38,511             7
  submitted under the wrong disposition
  category.

Unallowable duplicate cases and cases that                          4,644             7
  were prosecuted concurrently.

                                                               $693,758
Total Questioned Costs: 6
                                                            ($144,948)
Less: Duplicated Questioned Costs 7

TOTAL DOLLAR-RELATED FINDINGS                                  $548,811


         6
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.
         7
           The number of unallowable cases detailed includes cases that have duplicate
  questioned costs because the cases were questioned previously, based on other SWBPI
  reimbursement criteria. The total amount of duplicate questioned costs has been reduced
  from the total dollar-related findings.


                                              10

                                                                              APPENDIX III

                     DETAILS OF QUESTIONED COSTS

               CASES REIMBURSED IN THE WRONG REPORTING PERIOD 8
                                 PERIOD             DISPOSITION           AMOUNT
             CASE NO.
                                SUBMITTED              DATE              QUESTIONED
           112940001010          FY08-3             08/18/2011             $21,315
           116473201010          FY08-4             05/08/2009              12,447
           109263301010          FY08-1             12/10/2009               8,697
           113271301010          FY08-1             06/28/2010               8,697
           112723301010          FY08-1             02/06/2012               8,697
           125055501010           FY10              11/21/2011               7,229
           150160801010          FY08-2             08/29/2008               7,163
           150026901010          FY08-2             02/03/2009               7,163
           115001601010          FY08-2             02/24/2010               7,163
           112897801010          FY08-2             03/24/2010               7,163
           114957501010          FY08-2             06/07/2010               7,163
           113175701010          FY08-2             02/21/2011               7,163
           113462201010          FY08-2             09/08/2011               7,163
           114957601010          FY08-2             12/27/2011               7,163
           126971301010           FY10              10/31/2011               6,341
           112723601010          FY07-4             09/11/2008               5,726
           110721101010          FY07-4             02/19/2009               5,726
           110926601010          FY07-4             07/23/2009               5,726
           111393501010          FY07-4             10/08/2010               5,726
           109743101010          FY07-4             11/03/2010               5,726
           108823901010          FY07-2             03/18/2009               5,245
           110273001010          FY07-2             03/27/2009               5,245
           105518701010          FY07-1             06/14/2006               5,234
           139413001010          FY07-1             10/11/2007               5,234
           108811501010          FY07-1             08/08/2008               5,234
           105118501010          FY07-1             05/12/2009               5,234
           105722301010          FY07-3             11/17/2010               4,903
           111401301010          FY07-3             05/12/2011               4,903
           113513801010          FY08-3             06/30/2011               4,417
           160469101010          FY07-4             09/03/2009               4,295


       8
          All tables in this appendix reflect questioned costs for all cases questioned, including
duplicated questioned costs. Appendix II details dollar-related findings and the adjustment
for duplicated costs.


                                               11
                PERIOD           DISPOSITION    AMOUNT
  CASE NO.
               SUBMITTED            DATE       QUESTIONED
160573901010    FY07-4           08/03/2009        4,295
124136901010     FY10            08/23/2011        4,269
123552801010     FY10            02/15/2012        4,121
114971301010    FY08-2           03/19/2010        3,581
113462401010    FY08-2           10/11/2010        3,581
121718901010     FY10            05/31/2011        3,455
116201101010    FY08-4           09/22/2009        3,430
116253001010    FY08-4           07/08/2010        2,968
112250601010    FY07-4           09/29/2008        2,863
116216101010    FY08-4           08/24/2010        2,836
123012101010     FY10            01/24/2011        2,715
112997101010    FY08-2           10/17/2007        2,686
110048201010    FY07-3           04/07/2009        2,452
106486301010    FY07-3           06/12/2009        2,452
113261801010    FY08-4           12/09/2011        2,377
124991101010     FY10            10/06/2010        2,049
124050701010     FY10            05/24/2011        1,975
116831001010    FY08-4           10/15/2010        1,864
125992001010     FY10            12/16/2010        1,679
120674001010     FY10            07/19/2011        1,605
126085601010     FY10            01/19/2011        1,531
123865601010     FY10            08/12/2011        1,531
124267301010     FY10            10/20/2011        1,531
126015701010     FY10            12/15/2011        1,531
120927701010     FY10            04/21/2011        1,457
120898101010     FY10            06/17/2011        1,457
160186301010    FY07-4           05/26/2009        1,432
160258501010    FY07-4           05/28/2009        1,432
160386801010    FY07-4           06/04/2009        1,432
160405401010    FY07-4           06/03/2009        1,432
160471301010    FY07-4           06/08/2009        1,432
160561901010    FY07-4           06/10/2009        1,432
160581101010    FY07-4           06/11/2009        1,432
160654701010    FY07-4           06/16/2009        1,432
160699301010    FY07-4           06/17/2009        1,432
120361801010     FY10            03/25/2011        1,383
125266601010     FY10            06/10/2011        1,383
119020501010     FY10            06/20/2011        1,383



                           12

                 PERIOD           DISPOSITION    AMOUNT
   CASE NO.
                SUBMITTED            DATE       QUESTIONED
 125055601010     FY10            07/15/2011        1,383
 161541101010     FY10            11/10/2010        1,324
 121024101010     FY10            03/22/2011        1,309
 119439001010     FY10            04/01/2011        1,309
 121551001010     FY10            10/31/2011        1,309
 116624501010    FY08-4           07/21/2010        1,295
 125968701010     FY10            11/15/2010        1,235
 118708301010     FY10            01/13/2011        1,235
 118810501010     FY10            09/13/2011        1,235
 116541801010    FY08-4           07/14/2010        1,214
 117001901010    FY08-3           07/07/2010        1,207
 169393601010     FY10            11/08/2011        1,176
 122375601010     FY10            10/01/2010        1,161
 125949401010     FY10            10/20/2010        1,161
 123829201010     FY10            10/28/2010        1,161
 125981801010     FY10            11/08/2010        1,161
 124846701010     FY10            12/01/2010        1,161
 121141901010     FY10            05/16/2011        1,161
 119998401010     FY10            05/26/2011        1,161
 121972901010     FY10            07/13/2011        1,161
 118810601010     FY10            11/07/2011        1,161
 169263601010     FY10            02/10/2012        1,028
 116216201010    FY08-3           06/15/2010          768
 116474901010    FY08-3           04/27/2010          604
 117749501010    FY08-4           08/09/2010          459
 165600801010     FY10            04/11/2011          436
 163696001010     FY10            06/13/2011          436
 156763701010     FY10            01/07/2011          362
Total                                           $322,394




                            13

              CASES REIMBURSED FOR EXCESS DETENTION DAYS
         (INCLUDING DETENTION DAYS AFTER THE DISPOSITION DATE)
                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
153306301010    06/23/08     06/20/08          736          3        $60,235
158202401010    08/11/09     09/08/09          171          7         12,654
158158701010    07/31/09     02/20/10          162          6         11,988
120361801010    03/25/11     04/26/10          128          1          9,398
158550401010    06/18/09     07/04/09          102         13          7,548
120285401010    05/05/09     06/26/10           83         13          6,142
118708301010    01/13/11     03/12/09           87         19          5,032
124267301010    10/20/11     10/13/11          119         54          4,810
121972901010    07/13/11     08/10/10           73         10          4,662
119529101010    03/05/09     07/23/09           59         55          4,366
120285301010    04/07/09     06/06/09           56         25          4,144
114957601010    12/27/11     11/16/11          N/A        NULL         3,581
112002801010    01/08/08     06/11/08          N/A        330          3,581
126374901010    09/16/10     08/27/11           43         39          3,182
116473201010    05/08/09     04/14/09          121         84          2,988
108104101010    01/02/07     08/13/10          N/A          2          2,622
105722001010    11/17/06     03/30/07          N/A          2          2,617
107286001010    10/13/06     10/31/06          N/A          3          2,617
105518701010    06/14/06     12/08/06          N/A         33          2,617
105722301010    11/17/10     12/27/10          N/A         36          2,452
119998401010    05/26/11     08/19/09           75         49          1,924
125474901010    03/31/10     01/11/12           21        NULL         1,554
122797601010    09/03/09     07/22/11           21         21          1,554
141769801010    12/12/06     12/16/06          N/A          4          1,308
161541101010    11/10/10     05/06/10           16          1          1,110
121694701010    06/02/09     09/09/10           13         25            962
116563801010    05/21/08     05/06/08           17          6            904
121076401010    08/19/09     09/19/09            7         89            518
122353901010    08/26/09     08/26/09           25         20            370
116617301010    06/05/08     05/09/08           30         27            247
154524201010    09/10/08     08/21/08           23         20            242
116541801010    07/14/10     05/03/08            4          1            242
151763601010    08/20/08     04/03/08          141        138            242
161114201010    07/28/09     07/04/09           4          1             222
151746101010    04/09/08     04/02/08           9          7             164


                                      14

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
152243001010    05/06/08     04/27/08           11          9            164
151745801010    04/04/08     04/02/08            4          2            164
152854401010    05/30/08     05/28/08            4          2            164
153216701010    06/17/08     06/15/08            4          2            164
153260401010    06/20/08     06/18/08            4          2            164
153327901010    06/23/08     06/21/08            4          2            164
151925001010    04/14/08     04/11/08            5          3            164
153307101010    06/23/08     06/20/08            5          3            164
152030301010    04/22/08     04/17/08            7          5            164
152388001010    05/16/08     05/04/08           14         12            164
112940001010    08/18/11     08/16/07          230        228            164
153729501010    09/05/08     07/12/08          57         55             162
153548201010    08/27/08     07/02/08          58         56             162
153328501010    08/27/08     06/21/08          69         67             162
116617201010    07/16/08     05/09/08          70         68             162
116919701010    08/27/08     06/01/08          89         87             162
117802201010    08/14/08     08/09/08           7          5             162
154996701010    09/22/08     09/12/08          12         10             162
153328201010    09/09/08     01/03/11           2          1             162
154677601010    08/29/08     08/28/08           4          2             162
155070401010    09/22/08     09/20/08           4          2             162
155073101010    09/22/08     09/20/08            4          2            162
155083301010    09/22/08     09/20/08            4          2            162
153817501010    07/18/08     07/17/08            3          1            162
153829701010    07/18/08     07/17/08            3          1            162
116624501010    07/21/10     05/09/08            5          3            162
154862801010    09/09/08     09/06/08            6          4            162
116253001010    07/08/10     04/15/08           11          9            162
154113901010    08/29/08     08/01/08           30         28            162
117370301010    08/14/08     07/06/08           41         39            162
120632901010    04/30/09     03/06/09            3          1            148
118989101010    01/08/09     11/01/08          25         23             148
169393601010    11/08/11     11/28/11           2         31             148
121024101010    03/22/11     04/04/09          40         38             148
125238001010    05/13/10     02/19/10          82         80             148
125238101010    05/13/10     02/19/10          82         80             148




                                      15

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
116339501010    05/21/08     05/01/08          21         20              82
151745701010    04/03/08     04/02/08           3          2              82
151746001010    04/03/08     04/02/08           3          2              82
153327701010    06/23/08     06/21/08           3          2              82
152480401010    05/12/08     05/08/08           5          4              82
152459901010    05/12/08     05/07/08           6          5              82
113513801010    06/30/11     09/29/07           6          5              82
152028001010    04/24/08     04/16/08           9          8              82
151921801010    04/30/08     04/18/08          13         12              82
116216201010    06/15/10     05/20/08           2          1              82
153308001010    06/23/08     06/20/08           4          3              82
152504001010    06/03/08     05/10/08          25         24              82
154405101010    09/11/08     08/15/08          28         27              81
152382201010    07/01/08     05/04/08          60         59              81
153443601010    09/30/08     06/26/08          97         96              81
155136901010    09/25/08     09/22/08           4          3              81
153328701010    07/07/08     07/02/08           6          5              81
152664001010    08/21/08     05/17/08           7          6              81
117749501010    08/09/10     08/05/08           2          1              81
116216101010    08/24/10     05/06/08           2          1              81
154031401010    07/28/08     07/27/08           3          2              81
155802201010    10/27/08     10/26/08           2          1              74
155632901010    12/17/08     10/16/08           2          1              74
157509601010    01/23/09     01/22/09           2          1              74
119815901010    02/06/09     01/09/09           2          1              74
158910801010    03/27/09     03/26/09           2          1              74
159010701010    04/01/09     03/31/09           2          1              74
156498601010    04/06/09     12/01/08           2          1              74
121162401010    04/15/09     04/14/09           2          1              74
158159501010    05/27/09     02/21/09           2          1              74
161476201010    07/21/09     07/20/09           2          1              74
120823901010    08/19/09     03/21/09           2          1              74
162135701010    08/19/09     08/18/09           2          1              74
162298201010    08/26/09     08/25/09           2          1              74
161296701010    09/16/09     07/11/09           2          1              74
121770201010    09/17/09     06/01/09           2          1              74




                                      16

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
163311401010    10/08/09     10/07/09           2          1              74
164080301010    11/12/09     11/11/09           2          1              74
165238701010    03/02/10     01/07/10           2          1              74
164284001010    03/04/10     11/20/09           2          1              74
166566401010    03/10/10     03/09/10           2          1              74
124326201010    03/19/10     12/10/09           2          1              74
167789001010    05/04/10     05/03/10           2          1              74
168134301010    05/19/10     05/18/10           2          1              74
126295701010    07/09/10     05/18/10           2          1              74
167528101010    07/16/10     04/21/10           2          1              74
124467801010    07/22/10     01/05/10           2          1              74
125125001010    07/27/10     02/10/10           2          1              74
170066101010    08/18/10     08/17/10           2          1              74
169774701010    09/22/10     08/04/10           2          1              74
170827801010    09/22/10     09/21/10           2          1              74
126015801010    09/23/10     04/23/10           2          1              74
165600801010    04/11/11     01/24/10           2          1              74
125055601010    07/15/11     02/04/10           2          1              74
155812701010    12/16/08     12/17/08           1          1              74
126111801010    09/23/10     01/10/12           1          1              74
155590601010    11/13/08     11/11/08           3          2              74
156238101010    11/19/08     11/17/08           3          2              74
157162901010    01/07/09     01/05/09           3          2              74
157577401010    01/27/09     01/25/09           3          2              74
157714601010    02/02/09     01/31/09           3          2              74
157841901010    02/09/09     02/07/09           3          2              74
157845801010    02/09/09     02/07/09           3          2              74
158159601010    02/23/09     02/21/09           3          2              74
158368401010    03/04/09     03/02/09           3          2              74
159774001010    05/08/09     05/06/09           3          2              74
120591401010    05/14/09     03/04/09           3          2              74
160186201010    05/26/09     05/24/09           3          2              74
160819601010    06/22/09     06/20/09           3          2              74
161449401010    07/20/09     07/18/09           3          2              74
122572201010    07/28/09     07/26/09           3          2              74
161723501010    08/03/09     08/01/09           3          2              74




                                      17

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
161582301010    08/07/09     08/05/09           3          2              74
162750301010    09/15/09     09/13/09           3          2              74
163693601010    10/26/09     10/24/09           3          2              74
164630701010    12/10/09     12/08/09           3          2              74
163245301010    12/17/09     10/04/09           3          2              74
165751501010    02/01/10     01/30/10           3          2              74
166883901010    03/26/10     03/24/10           3          2              74
167780501010    05/04/10     05/02/10           3          2              74
168972801010    06/28/10     06/26/10           3          2              74
169416001010    07/19/10     07/17/10           3          2              74
169802801010    08/06/10     08/04/10           3          2              74
169804401010    08/06/10     08/04/10           3          2              74
127760501010    09/13/10     09/11/10           3          2              74
170846101010    09/24/10     09/22/10           3          2              74
155770501010    10/27/08     10/24/08           4          3              74
155770601010    10/27/08     10/24/08           4          3              74
156153101010    11/17/08     11/14/08           4          3              74
156562901010    12/08/08     12/05/08           4          3              74
156847801010    12/22/08     12/19/08           4          3              74
119835201010    01/12/09     01/09/09           4          3              74
120806101010    03/23/09     03/20/09           4          3              74
159397801010    04/20/09     04/17/09           4          3              74
159755201010    05/07/09     05/04/09           4          3              74
161420701010    07/20/09     07/17/09           4          3              74
163013701010    09/28/09     09/25/09           4          3              74
163673501010    10/26/09     10/23/09           4          3              74
164298201010    11/23/09     11/20/09           4          3              74
164630601010    12/11/09     12/08/09           4          3              74
165561401010    01/25/10     01/22/10           4          3              74
169393701010    07/19/10     07/16/10           4          3              74
169393801010    07/19/10     07/16/10           4          3              74
169399301010    07/19/10     07/16/10           4          3              74
169400201010    07/19/10     07/16/10           4          3              74
169690801010    08/02/10     07/30/10           4          3              74
170145301010    08/23/10     08/20/10           4          3              74
170459201010    09/07/10     09/04/10           4          3              74




                                      18

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
170574801010    09/13/10     09/10/10           4          3              74
127382201010    09/15/10     08/13/10           4          3              74
120898101010    06/17/11     03/27/09           4          3              74
126982901010    07/12/10     02/28/11           1          3              74
119820601010    01/12/09     01/08/09           5          4              74
159222001010    04/14/09     04/10/09           5          4              74
122053601010    06/22/09     06/18/09           5          4              74
161082201010    07/06/09     07/02/09           5          4              74
161397801010    07/20/09     07/16/09           5          4              74
164528401010    12/07/09     12/03/09           5          4              74
165238601010    01/11/10     01/07/10           5          4              74
166173301010    02/23/10     02/19/10           5          4              74
166518401010    03/10/10     03/06/10           5          4              74
125928801010    04/19/10     04/15/10           5          4              74
126281801010    05/17/10     05/13/10           5          4              74
126332401010    09/03/10     06/04/10           5          4              74
125456001010    03/11/10     01/15/12           1          4              74
161214901010    07/14/09     07/09/09           6          5              74
161519601010    07/28/09     07/23/09           6          5              74
124363601010    02/03/10     01/29/10           6          5              74
167394301010    04/21/10     04/16/10           6          5              74
126602801010    06/14/10     06/09/10           6          5              74
126383401010    09/17/10     09/18/10           1          5              74
157715301010    02/06/09     01/31/09           7          6              74
121276201010    04/29/09     04/23/09           7          6              74
164430101010    12/03/09     11/27/09           7          6              74
124656901010    04/07/10     01/01/10           7          6              74
127500101010    09/14/10     08/21/10           7          6              74
121141901010    05/16/11     04/12/09           7          6              74
121551001010    10/31/11     05/15/09           7          6              74
157922301010    02/17/09     02/10/09           8          7              74
162005501010    08/19/09     08/12/09           8          7              74
124726901010    04/12/10     01/11/10           8          7              74
168886101010    06/28/10     06/21/10           8          7              74
126067201010    07/01/10     05/04/10           8          7              74
126056801010    07/14/10     04/30/10           8          7              74




                                      19

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
162130401010    08/26/09     08/18/09           9          8             74
165347101010    01/20/10     01/12/10           9          8             74
168316601010    06/02/10     05/25/10           9          8             74
157343501010    01/23/09     01/14/09          10          9             74
124605601010    05/13/10     05/20/10           1          9             74
125893001010    07/28/10     05/05/11           1          9             74
157715201010    02/10/09     01/31/09          11         10             74
164572801010    12/14/09     12/04/09          11         10             74
124606001010    01/15/10     12/28/09          11         10             74
124605801010    01/26/10     12/28/09          11         10             74
125803401010    07/09/10     07/24/10           1         10             74
157830301010    02/17/09     02/06/09          12         11             74
164272201010    11/30/09     11/19/09          12         11             74
164281201010    12/02/09     11/20/09          13         12             74
166689901010    03/26/10     03/14/10          13         12             74
157550101010    02/05/09     01/23/09          14         13             74
157966001010    02/26/09     02/12/09          15         14             74
126971301010    10/31/11     07/08/10          15         14             74
119816101010    05/29/09     01/08/09          16         15             74
119435001010    12/22/08     12/06/08          17         16             74
121455401010    05/21/09     05/05/09          17         16             74
163389801010    10/26/09     10/10/09          17         16             74
158700801010    04/03/09     03/17/09          18         17             74
127186801010    08/11/10     07/25/10          18         17             74
124704401010    01/25/10     01/07/10          19         18             74
162007301010    08/31/09     08/12/09          20         19             74
166665201010    04/01/10     03/13/10          20         19             74
122536201010    08/25/09     07/23/09          23         22             74
122641001010    09/16/09     08/25/09          23         22             74
158960301010    04/20/09     03/28/09          24         23             74
122310801010    07/30/09     07/06/09          25         24             74
163763301010    02/17/10     02/27/10           1         24             74
155803001010    11/21/08     10/26/08          27         26             74
158566901010    04/08/09     03/12/09          28         27             74
126916901010    08/03/10     07/03/10          28         27             74
126917001010    08/03/10     07/03/10          28         27             74




                                      20

                                            DETENTION
                               JAIL                      ACTUAL
               DISPOSITION                    DAYS                  AMOUNT
  CASE NO.                   BOOKING                    DETENTIO
                  DATE                      REPORTED               QUESTIONED
                              DATE                       N DAYS
                                             TO OJP
164187201010    12/16/09     11/16/09          31         30             74
121223401010    05/19/09     04/18/09          32         31             74
165012701010    02/02/10     12/25/09          32         31             74
166500401010    04/06/10     03/06/10          32         31             74
127268401010    09/01/10     08/01/10          32         31             74
121197401010    08/24/09     07/23/09          33         32             74
161944201010    09/11/09     08/10/09          33         32             74
155531601010    11/13/08     10/11/08          34         33             74
123735401010    04/27/10     10/17/09          35         34             74
168391401010    07/02/10     05/29/10          35         34             74
158732001010    04/22/09     03/18/09          36         35             74
156942601010    01/30/09     12/23/08          39         38             74
160963201010    08/06/09     06/29/09          39         38             74
161111901010    08/11/09     07/04/09          39         38             74
127201301010    09/08/10     07/27/10          39         38             74
127168401010    09/03/10     07/24/10          42         41             74
126374801010    07/27/10     05/13/11           1         41             74
127201901010    09/08/10     07/27/10          44         43             74
167009901010    05/12/10     03/29/10          45         44             74
120435501010    09/11/09     02/20/09          49         48             74
124723201010    02/26/10     01/08/10          50         49             74
157192301010    02/27/09     01/06/09          53         52             74
167590101010    06/15/10     04/24/10          53         52             74
119174901010    01/07/09     11/15/08          54         53             74
119175401010    01/07/09     11/15/08          54         53             74
165085701010    02/24/10     12/30/09          57         56             74
121183101010    06/16/09     04/16/09          62         61             74
124458201010    02/15/10     12/15/09          63         62             74
119563601010    02/18/09     12/17/08          64         63             74
126208701010    07/15/10     05/08/10          69         68             74
126062701010    07/15/10     05/07/10          70         69             74
167279501010    06/24/10     04/10/10          76         75             74
126571501010    09/24/10     06/05/10          76         75             74
157527601010    04/07/09     01/22/09          77         76             74
120780501010    06/03/09     03/17/09          79         78             74
126600501010    08/27/10     06/08/10          81         80             74




                                      21

                                                 DETENTION
                                    JAIL                      ACTUAL
                 DISPOSITION                       DAYS                  AMOUNT
  CASE NO.                     BOOKING                       DETENTIO
                    DATE                         REPORTED               QUESTIONED
                                DATE                          N DAYS
                                                  TO OJP
118689301010      12/30/08     10/10/08              82         81             74
120238901010      05/07/09     02/07/09              90         89             74
120239101010      05/07/09     02/07/09              90         89             74
126778101010      09/30/10     02/01/11               1         89             74
120451301010      06/10/09     02/22/09             109        108             74
126433701010      09/16/10     05/25/10             115        114             74
159566701010      08/19/09     04/25/09             117        116             74
125376601010      06/30/10     03/03/10             119        118             74
120631401010      07/24/09     03/09/09             138        137             74
125951301010      09/13/10     04/17/10             150        149             74
120901001010      09/17/09     03/27/09             155        154             74
120238801010      07/14/09     02/07/09             158        157             74
166816501010      09/07/10     03/20/10             172        171             74
124715601010      05/06/10     02/01/11              1         181             74
120714101010      09/22/09     03/12/09             195        194             74
120141001010      08/24/09     01/31/09             206        205             74
120141101010      08/24/09     01/31/09             206        205             74
120141301010      08/24/09     01/31/09             206        205             74
119342501010      07/29/09     11/27/08             245        244             74
124786401010      09/17/10     01/13/10             248        247             74
125371101010      04/16/10     10/06/10              1         333             74
TOTAL                                                                    $192,263




                   CASES THAT WERE NOT FEDERALLY INITIATED
                     INITIATING      REPORTING      REIMBURSEMENT     AMOUNT
      CASE NO.
                       AGENCY         PERIOD           CATEGORY      QUESTIONED
   120349501010      HOUSTON PD        FY09              BOTH          $10,005
   116919601010      HOUSTON PD       FY08-4             BOTH            8,971
   119449401010      HOUSTON PD        FY09              BOTH            6,305
   126331901010     HARRIS COUNTY      FY10              BOTH            6,193
                       SHERIFF
   125801201010      HOUSTON PD         FY10            BOTH             4,861
   125899401010      HOUSTON PD         FY10            BOTH             3,751
   117293201010      HOUSTON PD        FY08-4           BOTH             3,663
   154113901010      HOUSTON PD        FY08-4           BOTH             3,314




                                           22

                INITIATING     REPORTING   REIMBURSEMENT    AMOUNT
  CASE NO.
                  AGENCY        PERIOD        CATEGORY     QUESTIONED
116339501010    HOUSTON PD      FY08-3          BOTH           3,235
152664001010   HARRIS COUNTY    FY08-4          BOTH           2,348
                  SHERIFF
154996701010    HOUSTON PD      FY08-4         BOTH            2,158
152243001010    HOUSTON PD      FY08-3         BOTH            1,809
150735801010    HOUSTON PD      FY08-2         BOTH            1,791
158700801010    HOUSTON PD       FY09          BOTH            1,635
148174501010    HOUSTON PD      FY07-4         BOTH            1,432
125973501010    HOUSTON PD       FY10          BOTH            1,383
118441201010    HOUSTON PD      FY08-4         BOTH            1,376
155136901010    HOUSTON PD      FY08-4         BOTH            1,214
119058301010    HOUSTON PD       FY09          BOTH            1,051
161634401010    LA PORTE PD      FY09          BOTH            1,043
121781301010    HOUSTON PD       FY09       PROSECUTION          829
                                               ONLY
153622001010   HARRIS COUNTY    FY08-4         BOTH             756
                  SHERIFF
156409701010   HARRIS COUNTY     FY09          BOTH             747
                 CONSTABLE
153942101010   HARRIS COUNTY    FY08-4         BOTH             675
                 CONSTABLE
155771801010    HOUSTON PD       FY09          BOTH             673
155070401010    HOUSTON PD      FY08-4         BOTH             620
154677601010    HOUSTON PD      FY08-4         BOTH             620
116479401010   HARRIS COUNTY    FY08-3         BOTH             548
                 CONSTABLE
156769101010    HOUSTON PD       FY09          BOTH             451
157744001010    HOUSTON PD       FY09          BOTH             451
157765401010    PASADENA PD      FY09          BOTH             451
151745901010    HOUSTON PD      FY08-3         BOTH             302
 TOTAL                                                      $74,665




                                  23

               CASES WITHOUT 24 HOURS OF DETENTION
                           DETENTION DAYS    ACTUAL
                QUARTER                                  AMOUNT
  CASE NO.                  REPORTED TO     DETENTION
               SUBMITTED                                QUESTIONED
                                OJP           DAYS
151835401010     FY08-4          96            0          $7,754
156277101010      FY09           59            0           4,366
150160801010     FY08-2          N/A           0           3,581
113175701010     FY08-2          N/A           0           3,581
112897801010     FY08-2          N/A           0           3,581
148174401010     FY08-1          N/A           0           3,261
151859701010     FY08-3          36            0           2,958
112723601010     FY07-4          N/A           0           2,863
114996901010     FY08-2          N/A           0           2,686
107375601010     FY07-2          N/A           0           2,622
139413001010     FY07-1          N/A           0           2,617
110883901010     FY07-3          N/A           0           2,452
140395701010     FY07-1          N/A           0           1,963
150490401010     FY08-2          N/A           0           1,791
162709001010      FY09           18            0           1,332
159920501010      FY09           14            0           1,036
150090601010     FY08-2          N/A           0             895
150735801010     FY08-2          N/A           0             895
158548201010      FY09            8            0             592
159672301010      FY09            6            0             444
155813601010      FY09            5            0             370
119667301010      FY09            5            0             370
158186101010      FY09            4            0             296
167312701010      FY10            4            0             296
153622001010     FY08-4           2            0             162
116888101010     FY08-4           2            0             162
152872901010     FY08-4           2            0             162
154126501010     FY08-4           2            0             162
117326201010     FY08-4           2            0             162
152910801010     FY08-4           2            0             162
158186301010      FY09            2            0             148
158052701010      FY09            2            0             148
159078201010      FY09            2            0             148
156764001010      FY09            2            0             148
156764101010      FY09            2            0             148
158198201010      FY09            2            0             148



                               24

                           DETENTION DAYS    ACTUAL
                QUARTER                                  AMOUNT
  CASE NO.                  REPORTED TO     DETENTION
               SUBMITTED                                QUESTIONED
                                OJP           DAYS
159522501010     FY09               2           0           148
161581401010     FY09               2           0           148
121934801010     FY09               2           0           148
121131901010     FY09               2           0           148
165863201010     FY10               2           0           148
166837601010     FY10               2           0           148
120674001010     FY10               2           0           148
123865601010     FY10               2           0           148
153942101010    FY08-4              1           0            81
116831001010    FY08-4              1           0            81
155814001010     FY09               1           0            74
157033401010     FY09               1           0            74
156366901010     FY09               1           0            74
155982401010     FY09               1           0            74
156490901010     FY09               1           0            74
158380501010     FY09               1           0            74
156717501010     FY09               1           0            74
156299801010     FY09               1           0            74
120285201010     FY09               1           0            74
158152901010     FY09               1           0            74
159739801010     FY09               1           0            74
159961401010     FY09               1           0            74
158150401010     FY09               1           0            74
158400701010     FY09               1           0            74
159327201010     FY09               1           0            74
159356201010     FY09               1           0            74
157885901010     FY09               1           0            74
157948201010     FY09               1           0            74
158550301010     FY09               1           0            74
158152301010     FY09               1           0            74
121781301010     FY09               1           0            74
162955601010     FY09               1           0            74
163265501010     FY10               1           0            74
163226001010     FY10               1           0            74
163201601010     FY10               1           0            74
123952701010     FY10               1           0            74
163852401010     FY10               1           0            74



                              25

                           DETENTION DAYS    ACTUAL
                QUARTER                                  AMOUNT
  CASE NO.                  REPORTED TO     DETENTION
               SUBMITTED                                QUESTIONED
                                OJP           DAYS
163899801010     FY10               1           0            74
164175801010     FY10               1           0            74
124484301010     FY10               1           0            74
164094501010     FY10               1           0            74
165657101010     FY10               1           0            74
163721701010     FY10               1           0            74
164417901010     FY10               1           0            74
163780701010     FY10               1           0            74
125457801010     FY10               1           0            74
164183001010     FY10               1           0            74
167212901010     FY10               1           0            74
165838701010     FY10               1           0            74
125612001010     FY10               1           0            74
125223301010     FY10               1           0            74
124152201010     FY10               1           0            74
124326301010     FY10               1           0            74
166139201010     FY10               1           0            74
168331001010     FY10               1           0            74
167366901010     FY10               1           0            74
167740401010     FY10               1           0            74
125167901010     FY10               1           0            74
125758101010     FY10               1           0            74
125440501010     FY10               1           0            74
126798701010     FY10               1           0            74
167212701010     FY10               1           0            74
127043301010     FY10               1           0            74
124312201010     FY10               1           0            74
169527001010     FY10               1           0            74
169527101010     FY10               1           0            74
126833101010     FY10               1           0            74
125988001010     FY10               1           0            74
126075201010     FY10               1           0            74
165519601010     FY10               1           0            74
126646201010     FY10               1           0            74
125371201010     FY10               1           0            74
169396401010     FY10               1           0            74
170694001010     FY10               1           0            74



                              26

                              DETENTION DAYS    ACTUAL
                  QUARTER                                     AMOUNT
  CASE NO.                     REPORTED TO     DETENTION
                 SUBMITTED                                   QUESTIONED
                                   OJP           DAYS
168711201010       FY10                1           0               74
126305201010       FY10                1           0               74
127215701010       FY10                1           0               74
125992101010       FY10                1           0               74
156763701010       FY10                1           0               74
119439001010       FY10                1           0               74
124050701010       FY10                1           0               74
125266601010       FY10                1           0               74
119020501010       FY10                1           0               74
126015701010       FY10                1           0               74
Total                                                         $61,282



        CASES SUBMITTED IN THE WRONG DISPOSITION CATEGORY
                                                CASE
                  REPORTING    DISPOSITION                  AMOUNT
    CASE NO.                                   LENGTH
                   PERIOD       CATEGORY                   QUESTIONED
                                               (DAYS)
  146467301010      FY08-1       91+ DAYS         6           $6,523
  111434301010      FY08-1       91+ DAYS        30            4,349
  102747901010      FY07-1       91+ DAYS         3            3,925
  107372201010      FY07-1       91+ DAYS         7            3,925
  105518701010      FY07-1       91+ DAYS        13            3,925
  109171701010      FY07-1      31-90 DAYS        5            2,617
  111255801010      FY07-3      31-90 DAYS        2            2,452
  113192301010      FY08-1      31-90 DAYS       28            2,174
  109687401010      FY07-2      31-90 DAYS      NULL           1,967
  112002801010      FY08-2       91+ DAYS        62            1,791
  148174501010      FY07-4       0-15 DAYS      NULL           1,432
  109687301010      FY07-2      31-90 DAYS       17            1,311
  110589301010      FY07-3      31-90 DAYS       18            1,226
  112997101010      FY08-2      31-90 DAYS       29              895
   TOTAL                                                    $38,511




                                 27

             CASES THAT WERE CONCURRENTLY PROSECUTED
                QUARTER    REIMBURSEMENT   DISPOSITION    AMOUNT
  CASE NO.
               SUBMITTED      CATEGORY        DATE       QUESTIONED
127201401010     FY10           BOTH       09/08/2010      $1,161
127201501010     FY10           BOTH       09/08/2010        1,161
125455301010     FY10       PROSECUTION    03/11/2010        1,161
                                ONLY
126023901010      FY10          BOTH       06/11/2010        1,161
Total                                                      $4,644




                                28

                                                                                                  APPENDIX IV
                                     HARRIS COUNTY RESPONSE
                                       TO THE DRAFT REPORT




~~
        'HO
 -0-          "'I'

",                   HARRIS COUNTy' TEXAS
       ~~v                                                                  Budget Management Department
                                                                                      Grants Coordination Section
                                                                      1310 Prair ie, Suite 500 · Houston, TX 77002
                                                                         Tel. (713) 755-3301 Fax (713) 755-4835


     May 2 1, 201 2

     David M . S heercn
     Regional A udit Manager
     U.S. Department of Justice
     Office o f the Inspector General
     Denver Regional Audit Office
       1120 Lincoln, Suite 1500
     Denver, Co lorado 80203

     Dear Mr. Sheeren,

     A ttached for your rev iew is our res ponse to the draft audit report, dated April 11 . 20 12, on the
     Southwest Borde r Prosecutio n Initiative fund s tha t Harris County has received from the Officc of
     Jus tice Program s ( O JP). T he a nalysis of the info rmation conta ined in the d ra fl report has been
     intensive, resulting in the slower than preferred response. We are sending a cons iderable
     amount of documentation as backup to o ur response.


     If yo u ha ve qut:s tions, please contac t m e a t 7 13-7 55 -6704 .

     S incerely,

           ~~L- ____
                   ~
     Jan Gorma n
     County Grant Coord inator

     Anac hme nts:

          1) R esponse to the D raft A ud it Report Dated A pril I I , 20 12 for the Aud it of Office of
             Justice Programs SouthWest Border Prosecution Initia ti ve F unding Received by 1        ·larri s
             County. Texas
          2) Printo uts of Case Transaction reports fro m Harris Count y Justice Information
             Management syste m .
          3) C D containing an E xcel S pre ads heet ti tle d ··SWBPt Audit Reply Spreadsheet Final"




                                                            29

~
..
'J-~
             ~~ HARRIS COUNTY, TEXAS
                                                                    Budget Management Department
                                                                                Grants Coordination Section
                                                                  1310 Prairie, Suite 500 Houston, TX 77002
                                                                     Tel. (713) 755-3301 · Fax (713) 755-4835



     Response to the Draft Audit Report Dated April 11, 2012 for the Audit of Office
     of Justice Programs SouthWest Border Prosecution Initiative Funding Received
                               by Harris County, Texas


       I.         Introduction
       Thank you for the opportunity to respond to the fi ndings and issues identified in this Draft Audit
       Report. Harris County's Budget Management Department has conducted a detailed review of each
       case mentioned in the draft report, returning to the original data sources at the various County
       departments that were involved in the process of compiling SouthWest Boarder Prosecution
       Initiative (SWBPI) reimbursement claims. This review has produced a variety of conclusions
       concerning the accuracy of the data presented in the Draft Audit Report. These range from total
       agreement with some of the Auditor'S findings to complete disagreement with others. As a result of
       the experiences garnered during this review, Harris County recognizes that issues e)list with
       accessing all the data needed to determine the correct status of each individual case and in the
       correct interpretation of some ofthat data. Hence in this response Harris County presents what it
       believes to be accurate and is happy to work closely with the Office of Justice Programs (OJP) to
       resolve any further concerns. The review has identified instances where it appears the Auditor
       under-calculated the amounts that Harris County should return to OJP, while in other instances the
       amounts are over-calculated, with a few instances where Harris County should be reimbursed
       further.


       II.        Responses to the Questioned Amounts Detailed
       Harris County's Justice Information Management System (J IM S) allows the addition of supplemental
       data to a case ad infinitum, meaning that the data in the system when cases were originally
       submitted for SWBPI reimbursement may have been added to since that point in time. For example,
       if an individua l violates the probation conditions established when th eir case was initially disposed
      the case is reopened and there might well be a second or even a third disposition date recorded in
       the data. Under certain circumstances the data that was or iginally supplied could be subsequently
       invalidated; a writ of habeas corpus or a motion for a new trial could be granted after a disposition
      was reported to DOJ . The case file data that was provided to the Auditor during his recent visit
       included all such additional and updated items reflecting activity since the cases were submitted for
       reimbursement.


      To assist in the analysis of the Draft Audit Report and to aid in the preparation of this response,
      Appendi)l III of the report was converted into an bcel spreadsheet. This allowed a review of the




                                                        30

computation of the dollar amounts questioned and the creation of additional data columns in which
response data could be displayed along with formulae to calculate the impacts of any discrepancies
identified. Harris County has added a worksheet titled "Jail Data" which contains the dates used to
populate the detention related fields in our response.




1) Case Reimbursed In The Wrong Period
The review of this section of the Draft Audit Report uncovered a number of issues with the data
presented and the identification of only a few actual problematic cases. Specifically:
a)   Of the 96 cases questioned, the DOJ Auditor has incorrectly identified the "Disposition Date" in
     77 cases. This is because the Auditor has entered the date of termination or revocation of
     probated sentences, rather than the initial date of judgment and sentencing for the case . The
     disposition dates we have listed reflect when the case was initially completed via a Judgment
     and Sentence/or a dismissal.
b)   In 37 of the 96 cases questioned the "Period Submitted" date shown on the Draft Audit Report
     is incorrect: in six (6) cases the report shows " FYI0" when "FYI2" is the correct value; in 18
     cases the report shows "FYI0" when "FYll" is correct; in 11 cases the report shows "FY07·4"
     when "FYI0" is correct; in one (1) case "FY08·2" is shown when "FY08-1" is the correct value;
     and in one (1) case " 10S518701010" "FY07-1" is shown which is when we submitted the case,
     however this cases initial disposition date would have placed it in "FY06-3" and should not have
     been submitted.
c)   There are five (5) cases listed that Harris County does not have record of submitting to OJP.
d)   Of the 91 cases that Harris County submitted for reimbursement seven (7) were submitted with
     incorrect disposition dates, of these: in four (4) cases "114957501010", "165600801010",
     "125055501010" and "114957601010" the actual disposition dates fell within the same
     reporting period; in one (1) case "10S518701010" the corrected disposition date mean that the
     case was submitted in the wrong reporting period; and in the final two (2) cases
     "123829201010" and "125992001010" were reported as "FYll " cases when they should be
     reported as part of the upcoming "FYI2" submission.


Harris County therefore believes that we should reimburse OJP for the one (1) case that was
reported in an incorrect period and the two (2) "FYI2" cases that were prematurely submitted.
Total value $8,074. Given that the reimbursement application for "FY12" is now due, Harris County
would appreciate direction on whether the two (2) "FY12" should be resubmitted?


2)   Cases Reimbursed For Excess Detention Days
This was the most difficult issue to review due to a number of inconsistencies in the data contained
in the Draft Audit Report. For example:
a)   There are 54 cases where the Auditor's "Jail Received Date" is incorrect and of these there are
     33 cases where the DOJ Auditor has recorded a "Jail Received Date" that is more recent than the
     "Disposition Date" - we have highlighted these 33 cases by changing the text color to red.




                                                 31

b)   There are 26 cases where the Auditor has identified the Disposition Date incorrectly. The dates
     shown were often the dates, following an initial disposition, when probation was either
     terminated or revoked.
c)   There were 73 cases where the number of detention days calculated by the Auditor differed
     from the actual number.

A review of the original data supplied to OJP by Harris County also showed errors:
a) Three (3) Disposition Dates were reported incorrectly.
b)   73 Jail Received Dates were reported incorrectly and as a result there was both under- and over­
     reporting of detention days.

There were also some cases induded on the list that predated the requirement to provide Detention
data. These cases were eligible as long as there was at least one (1) of detention associated. This
applied to seven (7) of these eight (8) cases.

In part because of the way the "Amounts Questioned" were calculated on the Draft Audit Report,
although Harris County has been able to identify fewer actual detention days than the Auditor, the
sum Harris County believes should be repaid to OJP is less than the total "Amount Questioned" at
$163,020.

3)   Cases That Were Not Federallv Initiated
The review of these 32 cases in the Harris County District Attorney's DIMS database revealed that all
were in fact federally referred. Therefore Harris County believes the listed Amounts Questioned
were correctly reimbursed and that no repayment is necessary.

4)   Cases Without Z4 hours Detention
The review of the 120 questioned cases show that 64 did in fact have one (1) or more detention
days. Prior to the third quarter of "FY08" there was no requirement to report detention days, and
out of those 13 cases we can only identify nine (9) that had one (1) or more detention days. There
were two (2) cases, "156277101010" and "168331001010", where Harris County actually under­
reported by one (1) day. Harris County agrees that the full "Questioned Amount" for the four (4)
pre "FY08-03" where there were no detention days should be returned to OJP. In addition, Harris
County should return to OJP the net amount associated with the differences in the numbers of
detention days reported to OOJ and the actual number per our jail database for the remainder of
the cases. This is calculated at $28,840.


5)   Cases Submitted In The Wrong Disposition Category
The cases reviewed seem to breakout into two (2) different groupings:
a)   There five (5) cases "146467301010", "111434301010", "113192301010", "112002801010" and
     "112997101010" were submitted in "FY08-1" of "FY08-2" when submissions did not involve the
     direct identification of Disposition Categories but rather the numbers of days to prosecute the
     cases. Those days to prosecution were then used to assign a case to a Disposition Category. In
     each case the number of days submitted was incorrect and too low . The Disposition Categories
     shown by the Auditor on the Draft Audit Report however do correspond to the actual number of
     days taken to prosecute each case. So jf Harris County has received reimbursement based on




                                                 32

     the Disposition Categories shown then those dollar amounts appear to be correct, except for
     case "112997101010", which we cannot find a record of submitting to OOJ. This case is
     concurrent with another case "113038101010" for the same individua l that was reported in
     "FY08-2" . That other case took 145 days to dispose but was reported as 142 days.
b)   The other nine (9) cases were submitted with an identified Disposition Category. Of these,
     seven (7) were indeed originally submitted with the wrong disposition category. However, in
     each of these cases they should have been reported in a longer category, as correctly identified
     by t he Auditor, therefore Harris County may have received a lower reimbursement than was
     due. In addition one (1) ofthese cases number "105518701010", which was submitted as part
     of the re imbursement for "FY07- 1" had a disposit ion date of 6/14/06 which falls into a period
     that we did not file a claim for. Therefore Harris County should not have received this
     reimbursement.


Harris County does not believe it should have been reimbursed for cases "112997101010" and
"105518701010" which are valued at $4,820. As noted above, Harris County may have not received
the full reimbursement due for some of the other 12 cases listed, but appears to be due the
amounts received to date.


6) Cases That Were Concurrently Prosecuted
Our review of the four (4) cases identified by the Auditor shows that these were all prosecuted
concurrently with other submitted cases. Harri s County therefore agrees that the $4,644
questioned should be returned to OJP.


Response Summary


Harris County will review the process by which SWBPI reimbursement reque sts are generated to
avoid a recurrence of the types of issues identified in this Draft Audit Report.


Harr is County believes that the following amounts are due to OJP and should be deducted from our
next SWBPt reimbursement request:


        a.    Case Reimbursed In The Wrong Period· $8,074
         b.   Cases Reimbursed For Excess Detention Days · $163,020
        c.    Cases That Were Not Federally Initiated· $0
        d.    Cases Without 24 hours Detention - $28,840
        e.    Cases Submitted In The Wrong Disposition category - $4,820
        f.    Cases Tl1 at Were Concurrently Prosecuted - $4,644



        Total: $209,398




                                                 33

                                                                APPENDIX V
                OFFICE OF THE INSPECTOR GENERAL
             COMMENTS ON HARRIS COUNTY’S RESPONSE
                      TO THE DRAFT REPORT

       The Office of the Inspector General (OIG), Audit Division, has
identified several issues in Harris County’s response to our draft report
(Appendix IV) that we believe should be specifically addressed. As a result,
we are providing the following comments on Harris County’s response to the
draft report.

      Harris County’s response on page 30 of this report states:

      The review has identified instances where it appears the Auditor
      under-calculated the amounts that Harris County should return to OJP,
      while in other instances the amounts are over-calculated, with a few
      instances where Harris County should be reimbursed further.

       We disagree with Harris County’s analysis of the calculations
performed by the auditor. The vast majority of the data used in our
calculations was provided by Harris County officials and was not altered or
recorded by the auditor. The data provided by Harris County in its master
case listing of SWBPI cases was used to identify any issues with the
reimbursements. Contrary to Harris County’s statement, the calculations
used by the auditor were not erroneous based on the data that was provided
by Harris County. In addition, the quality of the data provided by Harris
County was at times inconsistent, incorrect, or nonexistent. Our findings
resulted from the data originally provided by Harris County officials on
several occasions acknowledged significant limitations with their case
management system throughout the audit.

       Harris County also incorrectly claims that it should be reimbursed
further for cases that have been “over-calculated” during the audit. Any
cases incorrectly reported to OJP for reimbursement cannot be corrected
after the original submission in effort to request additional reimbursement.
It is Harris County’s responsibility to report correct data for cases that are
eligible for reimbursement and Harris County officials submitted
certifications attesting that the County’s submissions are eligible for
reimbursement and accurate. The SWBPI guidelines state “Each jurisdiction
will have 45 days to complete the certification and payment request. After
45 days, the funds may no longer be available.” Harris County has long
surpassed the 45 day payment certification deadline since its last submission
and is not eligible for additional reimbursements with respect to cases that it



                                      34

submitted with incorrect data that if submitted properly, may have qualified
it for additional reimbursements.

      Harris County’s response on page 30 of this report states:

      For example, if an individual violates the probation conditions
      established when their case was initially disposed the case is reopened
      and there might well be a second or even a third disposition date
      recorded in the data. Under certain circumstances the data that was
      originally supplied could be subsequently invalidated . . . after a
      disposition was reported to DOJ. The case file data that was provided
      to the Auditor during his recent visit included all such additional and
      updated items reflecting activity since the cases were submitted for
      reimbursement.

       The auditor did review a sample of 135 case files during fieldwork, but
the vast majority of the SWBPI case data was provided by Harris County in
the form of a master case listing. As a result, the auditor relied on the
master case listing for much of the case information, including the
disposition date data for each case. The auditor then analyzed the data
provided by Harris County to find any irregularities and basis for findings in
this report. The disposition dates provided by Harris County were used to
identify cases disposed in the wrong quarter.

       Harris County incorrectly asserts that there may be multiple
disposition dates for each case in some circumstances and that some
disposition dates may be “subsequently invalidated.” The SWBPI guidelines
state that “case resolution refers to the time between a suspect's arrest and
the resolution through dismissal, plea, conviction, or sentencing of the
criminal charges through a county or state judicial or prosecutorial process.
For defendants not physically arrested, alternative start dates are the date
of indictment, date of the initial criminal summons, or date of the summons
to appear.” The guidelines also state that “charge(s) not independently
prosecuted, but used as a basis for a probation or parole revocation hearing,
is ineligible for reimbursement.” In effect, Harris County should have been
tracking the actual disposition dates used during the submission of its
applications for reimbursement that corresponded to the original dismissal,
plea, conviction, and sentencing. The guidelines expressly exclude charges
not independently prosecuted such as probation violations, therefore Harris
County should have reported only the original disposition dates for SWBPI
purposes.




                                      35

      Harris County’s response on page 31 of this report states:

1) Case Reimbursed In The Wrong Period
     a) Of the 96 cases questioned, the DOJ Auditor has incorrectly
        identified the “Disposition Date” in 77 cases. This is because the
        Auditor has entered the date of judgment and sentencing for the
        case. The disposition dates we have listed reflect when the case
        was initially completed via a Judgment and Sentence/or a dismissal.
     b) In 37 of the 96 cases questioned the “Period Submitted date shown
        on the Draft Audit Report is incorrect . . .
     c) There are (5) cases listed that Harris County does not have a record
        of submitting to OJP.

       Harris County is inaccurate in its assertions that the audit report
presented incorrect data. Harris County officials provided the auditor a
master case listing of all the SWBPI cases claimed by Harris County to be
submitted to OJP for reimbursement including the disposition dates and the
submission periods. The auditor did not alter the master case listing data in
conducting our analysis. The SWBPI guidelines state that “[c]ases are
eligible for SWBPI submission only during the reporting period in which the
case was resolved.” Harris County officials that prepared the master case
listing for our audit that included the disposition date and submission period
for each case on the master case listing. This data was used to identify the
cases that were reimbursed in the wrong disposition period.

      Harris County claims it does not have a record of submitting five cases
to OJP, however the claim is not supported by documentation. Harris
County officials included these five cases in their master case listing of
SWBPI cases submitted to OJP since FY 2007. SWBPI guidelines state that
“[d]ocuments supporting a federally initiated and declined/referred case
must be retained for three years after the submission of the case for SWBPI
funds.” In preparing for our audit, Harris County had significant difficulties
in providing a comprehensive master case listing to the auditor. When the
auditor finally received the master case listing from Harris County officials,
he worked with Harris County officials to resolve omitted records and
missing information. It appears that Harris County experienced difficulties
compiling the master case listing during the audit because Harris County did
not properly retain documentation supporting previously submitted cases in
preparation of a “post award review” by the OIG.

      Subsequent to our audit, Harris County was able to provide some
supporting documentation for 64 of the cases that were reported as being
submitted in the wrong disposition. This supporting documentation including
the case disposition dates was sufficient to remedy questioned costs totaling


                                      36

$111,919. Therefore, the remaining questioned costs for remedy in
association with this recommendation are $75,014 ($186,933 - $111,919). 9
Although Harris County was able to provide some supporting documentation
to the OIG with regard to the remaining questioned costs, most of the
information provided consisted of what appears to be database printouts
without any source identification information or any copies of specific case
file documentation. This is insufficient supporting evidence to warrant the
remedy of the remaining questioned costs.

       Harris County’s response on pages 31 - 32 of this report states:

2) Cases Reimbursed For Excess Detention Days
     This was the most difficult issue to review due to a number of
     inconsistencies in the data contained in the Draft Audit Report. For
     example:

              a) There are 54 cases where the Auditor’s “Jail Received Date”
              is incorrect and of these there are 33 cases where the DOJ
              Auditor has recorded a “Jail Received Date” that is more recent
              than the “Disposition Date . . .”

              b) There are 26 cases where the Auditor identified the
              Disposition Date incorrectly. . .

              c) There are 73 cases where the number of detention days
              calculated by the Auditor differed from the actual number.

       There were also some cases included on the list that predated the
       requirement to provide Detention data. These cases were eligible as
       long as there was at least one (1) of detention associated. This
       applied to seven (7) of these eight (8) cases.

       In part because of the way the “Amounts Questioned” were calculated
       on the Draft Audit Report, although Harris County has been able to
       identify fewer actual detention days than the Auditor, the sum Harris
       County believes should be repaid to OJP is less than the total “Amount
       Questioned” at $163,020.

      Harris County is inaccurate in its assertions that the audit report is
incorrect. The auditor did not record incorrect dates for the cases that are
mentioned by Harris County. Most of the dates that Harris County now

       9
          Please see Appendix VII for a detailed analysis and summary of actions necessary to
close the finding.


                                             37

disputes were provided by Harris County officials as part of the master case
listing of all the SWBPI cases submitted by the county beginning FY 2007.
In addition, the auditor verified a sample of 135 cases for jail booking and
release dates to determine the accuracy of the information provided by
Harris County. Harris County provided these dates and the alleged
inaccuracies reflect the accuracy of the data that was provided. Harris
County also claims that the auditor incorrectly identified the disposition
dates, however the majority of the disposition dates as well as the jail
booking dates were provided by Harris County in the master case listing.

       Harris County statement that detention days for 73 cases were
incorrectly calculated by the auditor is also inaccurate. Detention
reimbursements in the SWBPI are determined by multiplying the jail per
diem rate by the total number of detention days. The discrepancies in the
calculations of detention days questioned are adjusted for OJP’s previous
review of some of the detention reimbursements. OJP provided the OIG a
listing of FY 2010 Harris County SWBPI cases that were reviewed by OJP
personnel. This OJP review consisted of the pre-trail detention
reimbursements mentioned on page 7 of this report. The OJP review
concluded in the retroactive removal of 3,626 days of excess detention days
from Harris County’s reimbursements. As a result of this OJP review of
pre-trial detention costs for FY 2010, we focused our audit on the remaining,
detention days to avoid questioning the same reimbursements that have
already been disallowed by OJP.

      Harris County incorrectly states that some of the listed cases that
predated the requirement to provide detention data should still be eligible.
The SWBPI guidelines state that in order to claim a pre-trial detention
reimbursement for a case, Harris County “must have held the case
defendant in a secure facility for 24 hours or more.” Even though there was
no specific requirement to report the detention days for each case submitted
to OJP at the time the cases were submitted, the 24-hour pre-trial detention
requirement was in force and was specifically mentioned in the guidelines.

      Harris County’s response on page 32 of this report states:

3) Cases That Were Not Federally Initiated
     The review of these 32 cases in the Harris County District Attorney’s
     DIMS database revealed that all were in fact federally initiated.
     Therefore Harris County believes the listed Amounts Questioned were
     correctly reimbursed and that no repayment is necessary.

      Harris County incorrectly states that the 32 cases listed under this
finding were correctly reimbursed and should not be repaid. SWBPI


                                      38

guidelines state that “[a] federally initiated case results from a criminal
investigation or an arrest involving federal law enforcement authorities for a
potential violation of federal criminal law, including task forces on which a
federal agency or officer participates in the investigation or arrest process.”
Harris County claims that these cases were federally initiated, but the case
files reviewed for each of these 32 cases had no mention of any federal law
enforcement involvement. According to the case file information, all these
cases were initiated and investigated by local law enforcement agencies
without any federal law enforcement involvement.

       Along with its response to the Draft Report, Harris County provided us
print-outs of what appeared to be a database screenshot for each of the 32
cases showing “Y” in the “Federal Agency Initiate Investigation?” field along
with the acronym of a federal agency in the “Federal Agency Code” field.
This documentation does not include any copies of case file documentation
and is insufficient to support the federal initiation of these cases. As a
result, the supporting documentation provided by Harris County is
insufficient to warrant removal of any of the questioned costs for the
corresponding recommendation.

      Harris County’s response on page 33 of this report states:

      The review of the 120 questioned cases show that 64 did in fact have
      one (1) or more detention days. Prior to the third quarter of “FY08”
      there was no requirement to report detention days. There were two
      (2) cases actually under-reported by one (1) day.

       Harris County’s claim that its review of the 120 cases shows that the
24-hour detention requirement was satisfied in 64 cases is not supported by
sufficient documentation. The SWBPI guidelines state that in order to claim
a pre-trial detention reimbursement for a case, Harris County “must have
held the case defendant in a secure facility for 24 hours or more.” Even
though there was no specific requirement to report the detention days for
each case submitted to OJP prior to the FY 2008 3rd Quarter, the 24-hour
pre-trial detention requirement was in force. Based on the jail booking and
release dates provided by Harris County officials, each of the 120 cases did
not meet the requirement for pre-trial detention because the defendant was
booked and released from jail on the same date. This fact alone violates the
24-hour pre-trial detention requirement necessary for the detention
reimbursement.

      Along with its response to the Draft Report, Harris County provided us
print-outs of what appeared to be a database with lists of data without any
source identification information or any copies of specific case file jail


                                      39

booking and release documentation. As a result, the provided
documentation is insufficient supporting documentation to remedy the
questioned costs for the corresponding recommendation.

      Harris County’s response on pages 32-33 of this report states:

4) Cases Submitted In The Wrong Disposition Category
     The Disposition Categories shown by the Auditor on the Draft Audit
     Report however do correspond to the actual number of days taken to
     prosecute each case. So if Harris County has received reimbursement
     based on the Disposition Categories shown then those dollar amounts
     appear to be correct, except for case “112997101010”, which we
     cannot find a record of submitting to DOJ.

      b) The other nine (9) cases were submitted with an identified
      Disposition Category. . . . However, in each of these cases they
      should have been reported in a longer category, as correctly identified
      by the Auditor, therefore Harris County may have received a lower
      reimbursement than was due. In addition one (1) of these cases
      number “105518701010”, which was submitted as part of the
      reimbursement for “FY07-1” had a disposition date of 6/14/06 which
      falls into a period that we did not file a claim for. Therefore Harris
      County should not have received this reimbursement.

      Harris County may have misinterpreted the data and meaning of the
table entitled “Cases Submitted in the Wrong Category.” The auditor
calculated the number of days between case initiation to case resolution of
every case in order to arrive at this finding. Harris County acknowledged
that the auditor properly found the actual case length for each case, but did
not recognize that the disposition category column of the table listed the
disposition category for each case actually submitted to OJP. According to
SWBPI guidelines “[e]ach eligible case may receive the following payment
based on length of time from declination/referral to resolution; availability of
funds; and the provision of both prosecution services and pre-trial detention
services: $2,500 for each case of 1 to 15 days; $5,000 for each case of 16
to 30 days; $7,500 for each case of 31 to 90 days; [and] $10,000 for each
case of 91+ days.” Because Harris County may have misinterpreted the
disposition category column as showing the allowable disposition category
for each case, this misinterpretation may have led to inaccurate conclusions
that some cases appear to be correct or have even received lower than
necessary reimbursements. In fact, the cases that were listed in the table
were reimbursed in excess of allowable reimbursements because they fell
under a shorter disposition category instead of a longer one. As a result, the



                                      40

actual length of case disposition for these cases was shorter than what was
reported to OJP on Harris County’s reimbursement requests.

      Harris County states that it does not have a record of submitting one
of the cases for reimbursement, however this case was originally provided
by Harris County in its master case listing of all SWBPI cases submitted.
Harris County officials were provided considerable time to send the
completed master case listing to the auditor and asked for additional time to
compile the case listing, which should have been stored and documented for
a potential SWBPI “post award review.” According to SWBPI guidelines,
“[d]ocuments supporting a federally initiated and declined/referred case
must be retained for three years after the submission of the case for SWBPI
funds.” Harris County could not provide the master case listing in its
entirety to the auditor until after fieldwork was completed. The auditor
worked with Harris County officials to follow-up on omitted records and
missing information well after the master case listing was provided by Harris
County.

      Harris County incorrectly states that it should not have been
reimbursed for case number “105518701010.” Harris County submitted the
case for reimbursement in FY 2007 1st Quarter using the June 14, 2006,
disposition date. The disposition date used by Harris County for this case
makes this case eligible for reimbursement in FY 2006, instead of in FY 2007
1st Quarter as it was submitted. Additionally, Harris County’s statement that
the case “falls into a period that we did not file a claim for” is incorrect,
because Harris County filed reimbursement claims for cases in all quarters of
FY 2006 and FY 2007 according to OJP data. As a result, the auditor
questioned this case because it was submitted in the wrong SWBPI
submission period.

       Harris County also provided in its response supporting documentation
that was sufficient to remedy three cases totaling $5,892 of questioned
costs. 10 Although Harris County was able to provide some supporting
documentation to the OIG, most of the information provided consisted of
what appear to be database printouts with lists of data without any source
identification information or any copies of specific case file documentation.
This is insufficient supporting evidence to warrant the removal of the
remaining questioned costs. Therefore, the remaining questioned costs for
remedy in association with this recommendation are $25,472 ($31,364 ­
$5,892).



       10
           Please see Appendix VII for a detailed analysis and summary of actions necessary
to close the finding.


                                             41

                                                                                    APPENDIX VI
                   OFFICE OF JUSTICE PROGRAMS
                  RESPONSE TO THE DRAFT REPORT


                                                 U.S. Department of Justice

                                                 Office ofJustice Programs

                                                Office ofAudit, Assessment, and Management



                                                W",.hinzr_ D.C. 10511



 Ill! MAY liI

MEMORANDUM TO:               David M . Sheeren
                             Regional Audit Manager
                             Denver Regional Audit Office
                             Office of the Inspector General

FROM,                        Maureen A~lcpnebcrg I I ~ . 4...
                             Director   Y\~~6<AO
SUBJECT:                     Response to the Draft Audit Report, Audit ofOffice ofJus/ice
                             Programs Southwest Border Prosecution Initiative Funding
                             Received by Harris County, Texas

The Office of Justice Programs (OJ P) appreciates the opportunity to review and comment on the
Office of the Inspector General 's (OIG's) draft report, entitled "Audit of Office of Justice
Programs Southwest Border ProSt.'Cution Initiative FWlding Received by Harris County, Texas,"
dated April!!, 2012. We consider the subject report resolved and request written acceptance of
this action from yo ur office.

As a result of the OIG's audit of the Southwcst Border Prosecution Initiative (SWBI'I) program
in fiscal years (FYs) 2008 and 2010, and the Office of Audit, Assessment, and Management's
(OAAM) review of this program in FY 20 11 , the Bureau of Justice Assistance (BJA) made the
following enhancements: I) modified the SWBPT application system to requi re that each
prosecution case submitted by ajurisdiction for reimbursement contain the case!docket number,
defendant's first and last name, refcrring fedcral agency, referred date, resolution type, and
resolved date; 2) e~tabli shed new intemal guidelines to ensure that SWBPI reimbursements lire
analyzed 10 identify anomal ies that may indicate unallowable or unsupported payments to
specific jurisdictions; and 3) implemented a process to identify overlapping requests for
detention expenses between SWBPI and the State Criminal Alien Assistance Program.




                                              42

BJA's enhanced monitoring proccs~ over SWBPI payments has resulted in increased scrutiny,
and now includes a review ora minimum of 10% orthe annual payments made under the
program. However, due to inherent limitations, no monitoring (or auditing) process can
successfully identify and CDme! all deficiencies. With regard to the subject audit, the majority
of costs questioned under Harris County's (County) SWBPT awards were not part of the sample
reviewed by BlA. Additionally, some of the ineligible SWBPI cases, identified by the oro
during Ihis audit, were for cases submitted by the County prior to changes that BJA implemented
for the SWBP.! program, begilU1ing in October 2008.

The report contains six recommendations and $548,812 in questioned costs. The following is
OJP's analysis of the draft audit report recommendations_ For ease of review, the
recommendations are restated in bold and arc followed by our respon~c .

1.     We recommend that OJP remedy tbe $186,933 in questioned costs received by
       Harris County for 96 cases tbat were submitted in the wrong period.

       We agree with the recommendation, and will coordi nate with the County to remedy the
       $186,933 in questioned cosl<; related to the 96 cases that were submitted in Ihe wrong
       period_ However, as previously indicated, if all of the other case requirements were met,
       OlP v.rill not require the funds to be returned.

2.     We recommend that OJ}> remedy the $191,135 in questioned costs received by
       Harris County for 308 cases that were submitted for detention days in excess of the
       actual number of pre-trial detention days, including claims for prew
                                                                          trial detention
       costs after the cases were disposed.

       We agree with the recommendation. We will coordinate with the County 10 remedy the
       $191, 135 in questioned costs related to the 308 cases that were submitted for detention
       days in excess of the actual number of pre-trial detention days, including claims for
       pre-trial detention costs after the cases were disposed.

3.     We recommend that OJP remedy the $74,665 in questioned costs received by Harris
       County for 32 cases that were not Federally initiated.

       We agree with the recommendation. We will coordinate with the COWlty to remedy the
       $74,665 in questioned costs related to the 32 cases that were not Federally initiated.

4.     We recommend that OJP r emedy the $60,071 in questioned costs received by Harris
       County for 120 cases that were submitted under both the prosecution and pr(Hrial
       detentiun category that did not meet the requirements for pre-trial detention.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $60,071 in questioned costs relatcd to the 120 cases that were submitted under both the
       prosecution and pre-trial detention categories, that did not meet the requirements for pre­
       trial detention.



                                                2




                                               43

5.     We r ecommend that OJP remedy the $3 1,364 in questioned costs received by Harris
       Coun ty for 14 cases that were th at w er e submitted under the wrong disposition
       category, based on Dumber of days from arrest to disposition.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $31 ,364 in questioned costs related to the 14 cases that were submitted under the wrong
       disposition category, based on the numoc.-r of days from arrest to disposition.

6.     We recommend that OJP remedy the $4,644 in questioned costs received by Harris
       County for four cases that were investigated or prosecuted during concurrent
       periods of time with cases invo lving the same defendan t that wefe also su bmitted for
       rcimbunlemcnt.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $4,644 in questioned costs related to the fo ur cases that were investigated or prosecuted
       during concurrent periods of time with cases involving the same defendant t hat were also
       submitted for reimbursement.

!f you have any questions or require additional information, please contact Jeffery A. Haley,
Deputy Director, Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O 'Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda loCicero
       Budget Analyst
       Bureau of Justice Assistance

       Joseph Husted
       Policy Advisor
       Bureau of Justice Assistance

       Maria Anderson
       State Policy Advisor
       Bureau of Justice Assis tance




                                                3




                                               44

cc:   Louise Duhamel, Ph.D.
      Acting Director, Audit Liaison Group
      Intemal Review and Evaluation Office
      Justice Management Division

      OJI' Executive Secretarial
      Control Number 20120423




                                             4




                                             45

                                                                        APPENDIX VII

                    OFFICE OF THE INSPECTOR GENERAL

                   ANALYSIS AND SUMMARY OF ACTIONS 

                      NECESSARY TO CLOSE REPORT


       The OIG provided a draft of this audit report to OJP and Harris County.
In its response, which is included in Appendix VI of this report, OJP states
that “With regard to the subject audit, the majority of costs questioned
under Harris County’s (County) SWBPI awards were not part of the sample
reviewed by BJA. Additionally, some of the ineligible SWBPI cases, identified
by the OIG during this audit were for cases submitted by the County prior to
changes that BJA implemented for the SWBPI program, beginning in October
2008.” We recognize the changes that OJP made to the SWBPI program in
October 2008 based on recommendations provided in a prior OIG report. 11
However, questioned costs related to the ineligible cases submitted prior to
2008 must still be remedied. OJP’s response is incorporated in Appendix VI
of this final report. The following provides the OIG analysis of the response
and summary of actions necessary to close the report.


Recommendation Number

   1. Resolved.	 OJP concurred with our recommendation to remedy the
      $186,933 in questioned costs received by Harris County for 96 cases
      that were submitted in the wrong period. OJP stated in its response
      that it will coordinate with the County to remedy the $186,933 in
      questioned costs related to the 96 cases that were submitted in the
      wrong period.

       In its response, which is included as Appendix IV of this report, Harris
       County provided its views of our findings. In addition, Harris County
       proposed reviewing its processes and working closely with OJP to
       resolve the recommendations. In addition, Harris County provided in
       its response supporting documentation that was sufficient to remedy
       64 cases totaling $111,919 of the questioned costs. Therefore, the
       remaining questioned costs for remedy in association with this
       recommendation are $75,014 ($186,933 - $111,919).




       11
          U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008).



                                            46

   This recommendation can be closed when we receive documentation
   that OJP remedied the $75,014 in questioned costs received by Harris
   County for 32 cases that were submitted in the wrong period.

2. Resolved.	 OJP concurred with our recommendation to remedy the
   $191,135 in questioned costs received by Harris County for 308 cases
   that were submitted for detention days in excess of the actual number
   of pre-trial detention days, including claims for pre-trial detention
   costs after the cases were disposed. OJP stated in its response that it
   will coordinate with the County to remedy the $191,135 in questioned
   costs related to the 308 cases that were submitted for detention days
   in excess of the actual number of pre-trial detention days, including
   claims for pre-trial detention costs after the cases were disposed.

   This recommendation can be closed when we receive documentation
   that OJP remedied the $191,135 in questioned costs received by Harris
   County for 308 cases that were submitted for detention days in excess
   of the actual number of pre-trial detention days, including claims for
   pre-trial detention costs after the cases were disposed.

3. Resolved.	 OJP concurred with our recommendation to remedy the
   $74,665 in questioned costs received by Harris County for 32 cases
   that were not federally initiated. OJP stated in its response that it will
   coordinate with the County to remedy the $74,665 in questioned costs
   related to the 32 cases that were not Federally initiated.

   This recommendation can be closed when we receive documentation
   that OJP remedied the $74,665 in questioned costs received by Harris
   County for 32 cases that were not federally initiated.

4. Resolved.	 OJP concurred with our recommendation to remedy the
   $60,071 in questioned costs received by Harris County for 120 cases
   that were submitted under both the prosecution and pre-trial detention
   category that did not meet the requirements for pre-trial detention.
   OJP stated in its response that it will coordinate with the County to
   remedy the $60,071 in questioned costs related to the 120 cases that
   were submitted under both the prosecution and pre-trial detention
   categories, that did not meet the requirements for pre-trial detention.

   This recommendation can be closed when we receive documentation
   that OJP remedied the $60,071 in questioned costs received by Harris
   County for 120 cases that were submitted under both the prosecution
   and pre-trial detention category that did not meet the requirements for
   pre-trial detention.


                                   47

5. Resolved.	 OJP concurred with our recommendation to remedy the
   $31,364 in questioned costs received by Harris County for 14 cases
   that were that were submitted under the wrong disposition category,
   based on numbers of days from arrest to disposition. OJP stated in its
   response that it will coordinate with the County to remedy the $31,364
   in questioned costs related to the 14 cases that were submitted under
   the wrong disposition category, based on the number of days from
   arrest to disposition.

  Harris County also provided in its response supporting documentation
  that was sufficient to remedy three cases totaling $5,892 of
  questioned costs. Therefore, the remaining questioned costs for
  remedy in association with this recommendation are $25,472
  ($31,364 - $5,892).

  This recommendation can be closed when we receive documentation
  that OJP remedied the $25,472 in questioned costs received by Harris
  County for 11 cases that were that were submitted under the wrong
  disposition category, based on numbers of days from arrest to
  disposition.

6. Resolved.	 OJP concurred with our recommendation to remedy the
   $4,644 in questioned costs received by Harris County for four cases
   that were investigated or prosecuted during concurrent periods of time
   with cases involving the same defendant that were also submitted for
   reimbursement. OJP stated in its response that it will coordinate with
   the County to remedy the $4,644 in questioned costs related to the
   four cases that were investigated or prosecuted during concurrent
   periods of time with cases involving the same defendant that were also
   submitted for reimbursement.

  This recommendation can be closed when we receive documentation
  that OJP remedied the $4,644 in questioned costs received by Harris
  County for four cases that were investigated or prosecuted during
  concurrent periods of time with cases involving the same defendant
  that were also submitted for reimbursement.




                                 48

